Before the Transportation and Infrastructure Committee
Railroads Subcommittee
U.S. House of Representatives



  For Release on Delivery
  Expected at
                            Highway-Railroad
  10 a.m. EST
  Thursday                  Grade Crossing
  July 21, 2005
  CC-2005-060               Safety Issues




                            Statement of
                            The Honorable Kenneth M. Mead
                            Inspector General
                            U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today on the Federal Railroad
Administration’s (FRA) oversight of highway-railroad grade crossing safety. We
issued major grade crossing safety reports in 1999 and 2004, and we have another
report in process. Our testimony is based on this body of work. In 2004, there
were 3,045 grade crossing collisions resulting in 368 fatalities. There have been
significant strides in reducing fatalities at grade crossings over the last 10 years,
but more can be done to prevent deaths and serious injuries. We commend the
Chairman and Subcommittee for holding this hearing.

In 1994, the Department set a goal to reduce grade crossing fatalities by 50 percent
over the following 10 years. At that time, there were 626 deaths from crossing
collisions. Over those 10 years, the Department made significant progress toward
reaching its goal. The number of grade crossing collisions declined by 39 percent
and fatalities fell by 47 percent to 332 deaths in 2003. Most of the progress FRA
achieved came from closing about 41,000 crossings and installing automatic gates
and flashing lights at about 4,000 other crossings with a high probability for
collisions.

Despite this progress, the number of deaths at crossings rose 11 percent in 2004, to
368. This indicates that continued attention needs to be paid to efforts to improve
safety. Further progress can also be expected to be more difficult and to yield
incrementally fewer benefits. In other words, FRA has picked the “low-hanging
fruit,” and additional gains will be harder to achieve. To illustrate, automatic
warning devices do not prevent all accidents. Nearly half of the crossing
collisions that occurred in the last 5 years occurred at crossings with active
warning devices. More importantly, further progress will be difficult because
railroad accident reports attributed 91 percent of collisions (over the last 5 years)
to reckless or inattentive drivers. For example, drivers ignore warning signs or
even drive around barriers as trains approach.

To its credit the Department is continuing its focus on improving grade crossing
safety. In 2004, at the direction of Congress, the Department issued a new action
plan that calls for a comprehensive Department-wide effort to adopt a uniform
strategy to further reduce crossing collisions and fatalities. The new plan
identifies several initiatives, including strengthening law enforcement by
vigorously enforcing grade crossing traffic laws to discourage dangerous behavior
by motor vehicle drivers.

FRA also issued three new rules to enhance safety at crossings this year pertaining
to the use of reflective stickers on railroad cars to increase visibility; strengthening
requirements for sounding horns at crossings; and improving the crashworthiness
                                                                                  2

of locomotive event recorders. These are all important actions, but our recent
audit work indicates that greater attention is needed in the areas of reporting and
investigating grade crossing collisions, and strengthening enforcement when an
FRA inspector cites a railroad for a safety defect.

In the summer of 2004, news reports raised serious questions about the reporting
and investigation of grade crossing accidents. Responding to these concerns,
Representative James L. Oberstar, Ranking Member of the House Committee on
Transportation and Infrastructure; Representative Corrine Brown, Ranking
Member of this Subcommittee; and Senator Daniel K. Inoyue, Ranking Member
of the Senate Committee on Commerce, Justice, and Science; asked us to review
FRA’s oversight of grade crossing accident reporting, investigations, and
inspections.

We are finalizing our work on this request and will discuss three areas that FRA
needs to address as it moves forward: improving accident reporting, conducting
more investigations of crossing collisions, and strengthening enforcement of
crossing safety regulations.

   1. Railroads failed to report 21 percent of serious crossing collisions to the
      National Response Center (NRC) and FRA can do more to enforce this
      reporting requirement. Railroads are required to report serious accidents
      involving fatalities to the National Response Center immediately, so the
      Federal government can properly respond. We found 21 percent of serious
      crossing collisions were not being reported at all, let alone in a timely way.
      Our analysis showed that 115 of the 543 serious grade crossing collisions
      that occurred between May 1, 2003, and December 31, 2004, should have
      been reported to NRC, but were not in its database. These unreported
      crossing collisions killed 116 people. These collisions were ultimately
      reported to FRA within 30 to 60 days after the collision, as required, but
      that was too late to allow Federal authorities to take prompt action. FRA
      only recently began reconciling its database with the NRC, and told us that
      they plan to penalize railroads for failing to notify NRC. These
      enforcement efforts need to be sustained to ensure that railroads properly
      report serious accidents.

      FRA should also examine ways to clarify its requirements for reporting
      collisions to NRC to avoid any confusion on the part of railroad employees.
      We found eight different FRA criteria for reporting collisions to NRC.
      Some of these applied to any train accidents, and others applied only to
      grade crossing collisions. A simple way to clarify this is to require
      reporting to NRC any collision that results in one fatality or one injured
      person being taken to a hospital.
                                                                               3



2. The Federal government investigates very few crossing collisions and
   needs to develop strategies to increase its involvement in investigations.
   FRA investigated 9 of the 3,045 crossing collisions that occurred in 2004.
   FRA investigated 47, or 13 percent, of the 376 most serious crossing
   collisions that occurred from 2000 through 2004, according to FRA’s
   accident database. We found that no Federal investigations were conducted
   for the other 329 serious crossing collisions, which caused 159 deaths and
   1,024 injuries. FRA officials stated that the National Transportation Safety
   Board (NTSB) is the lead Federal agency responsible for investigating
   accidents, not FRA. However, NTSB tends to investigate major crossing
   collisions, and conducted just seven crossing investigations from 2000 to
   2004. Because the Federal government does not independently investigate
   most collisions, information that FRA gets concerning the causes comes
   almost exclusively from self-reporting by railroads.

   The railroads’ reports attribute over 90 percent of the collisions to
   motorists, and FRA as a practice, does not conduct its own investigation to
   verify these findings. For example, FRA does not routinely review and
   analyze locomotive event recorder data, state and local police reports, or
   state railroad inspectors’ collision reports.       Collecting independent
   information about accidents would substantially improve FRA’s ability to
   understand the causes of grade crossing collisions and better target
   collisions that FRA decides it should itself investigate. We think this is
   especially important given the limited resources of FRA’s inspection staff.

3. FRA should strengthen its enforcement of grade crossing safety
   regulations. FRA inspectors identified 7,490 critical safety defects out of
   69,405 total safety defects related to railroad crossing warning signals, from
   2000 through 2004. But they recommended only 347—about 5 percent of
   critical defects—for violations, which carry a fine. Critical defects include
   the failure of a signal to activate or the failure of a railroad employee to
   repair signal malfunctions in a timely manner. Before fines can actually be
   assessed, however, the recommendations must go through an adjudication
   process including first, approval by regional FRA officials and then,
   approval by the Chief Counsel at FRA’s headquarters. Even if the Chief
   Counsel agrees to assess a fine, the railroads typically negotiate with FRA,
   and are usually successful in decreasing the fines. In total, FRA collected
   only $271,000 in fines from railroads in 2003 for grade crossing signal
   violations.

   FRA needs to consider whether the small number of violations
   recommended for civil penalties and the low amounts of fines collected
                                                                                                     4

          sufficiently encourage railroads to better comply with Federal safety
          standards. FRA needs to emphasize enforcement by issuing more
          violations and assessing civil penalties when critical safety defects are
          discovered. We note that following the Secretary’s announcement of the
          Department’s new Action Plan, FRA assessed one railroad $298,000 for
          grade crossing signal violations related to a single collision that killed two
          people. This fine was larger than the total of all of the fines imposed upon
          all of the railroads in 2003 for grade crossing signal violations. That level
          of penalty can be expected to focus railroads’ attention on crossing safety.

The focus of our current audit work builds upon the grade crossing safety report
we issued in June 2004. The 2004 report focused on the Department’s progress in
implementing its 1994 Highway-Rail Grade Crossing Safety Action Plan and
highlighted collision trends for targeting future grade crossing safety
improvements. We recommended that the Department adopt a more targeted
approach to focus on the states and public crossings that continue year after year to
have the highest number of crossing collisions. This more targeted approach
would result in these states developing an action plan that identifies specific steps
to improve safety at those crossings that continue to have collisions. For example,
FRA needs to continue to encourage states to upgrade crossings that do not have
active warning devices, based on the frequency of accidents at those crossings.
We also recommended that FRA focus its safety efforts by encouraging states to
strengthen traffic enforcement strategies and target motor vehicle drivers that
violate grade crossing laws and warnings. The Department has made progress in
implementing these recommendations.

In February 2005, we also reported 1 that FRA needs to use trend analysis to target
its inspection and enforcement efforts on the problems that are most likely to
result in accidents and injuries, and use other data analysis tools to examine key
indicators of a railroad's safety condition. In response, FRA issued a new National
Rail Safety Action Plan, which represents the Department’s aggressive new
approach to improving safety throughout the railroad industry. This plan is
intended to strengthen its oversight of railroad safety and improve the quality and
reliability of the information it uses in oversight activities.

We would like to now address the three areas in greater detail.




1
    Memorandum to Acting Federal Railroad Administrator Robert D. Jamison: “Safety-Related Findings and
    Recommendations,” February 16, 2005.
                                                                                  5



1. Railroads failed to report 21 percent of serious crossing collisions to the
National Response Center (NRC) and FRA can do more to enforce this
reporting requirement. We found that 21 percent of serious rail grade crossing
accidents were not reported to the National Response Center. Despite Federal
regulations requiring the railroads to notify NRC by telephone of serious grade
crossing collisions within 2 hours, we found six large railroads and several smaller
ones failed to report some serious grade crossing collisions to NRC. From
May 1, 2003 through December 31, 2004, 115 serious grade crossing accidents, or
21 percent of the 543 serious accidents that should have been reported to NRC,
were not in its database. These unreported accidents killed 116 people.

For example, on October 29, 2003, a Class I railroad did not notify NRC when one
of its freight trains collided with a motor vehicle at a public grade crossing in
Tennessee. The 18-year old motor vehicle driver died shortly after arriving at the
hospital. FRA told us that the underreporting of serious grade crossing accidents
is largely attributable to injured highway users dying after they were taken from
the grade crossing accident scene. FRA officials told us that confusion by railroad
employees about which accidents to report to NRC also contributes to some
missed reporting. FRA could address both problems by simplifying the reporting
requirements, which we found complex. An easy fix would be to require
accidents that result in even one serious injury to be reported.

When we issued our June 2004 report, FRA had not established a formal
mechanism to identify serious accidents that had not been reported. In July 2004,
FRA established a process to verify whether the railroads were reporting grade
crossing collisions to the NRC by comparing the NRC’s data with reports that
railroads submit to a separate FRA database within 30 to 60 days after a grade
crossing collision. FRA officials recently informed us that they plan to take
enforcement action to fine the railroads if they fail to report serious accidents to
NRC in a timely manner.

2. The Federal government investigates very few crossing collisions and needs
to develop strategies to increase its involvement in investigations. We found that
FRA investigates less than 1 percent of all crossing collisions (see Table 1), and
2 percent of the serious collisions reported to the NRC. As a result, FRA relies
heavily on accident reports submitted to it by the railroads to evaluate the
circumstances, probable causes, and responsible parties in most crossing
collisions. FRA does not routinely review independent sources of information for
these collisions, such as police reports.

Typically, crossing collisions are promptly investigated only by railroad
employees and state or local law enforcement officers, without any Federal
                                                                                      6

officials present. For most of the nearly 3,200 collisions that occur each year,
railroad employees are among the first to arrive at the accident scene to investigate
collisions. The railroads are required to submit an accident report to FRA within
30 days after the end of the month in which the crossing collision occurred.

State or local law enforcement officers also promptly arrive at the scene of
crossing collisions to independently document it, but their reports are not routinely
requested by FRA. With few Federal investigations and independent reports from
law enforcement officers, FRA has opted to rely primarily on the information in
the railroads’ accident reports regarding the nature, cause, and party responsible
for most crossing collisions.

Both NTSB and FRA have the legislative authority to investigate any crossing
collision, but NTSB tends to focus on high-profile crossing collisions with
multiple fatalities. In March 2000, for example, NTSB led the investigation of a
collision between a
CSX freight train and       Table 1. Railroad Accidents, 2000-2004
a school bus in
                                   Train Accidents       Crossing Collisions
Tennessee that killed
three and injured              Number Investigated Number Investigated
seven.     FRA also Year                  No. %                   No. %
participated in this 2000        16,918     57    0.3%     3,502     12    0.3%
investigation.           2001    16,087     75    0.5%     3,237     18    0.6%
                          2002      14,404      54    0.4%       3,077      10    0.3%
FRA officials told us
                            2003       14,239     76    0.5%       2,963      4    0.1%
its      ability      to
investigate crossing 2004              13,939     93    0.7%       3,045      9    0.3%
collisions is limited Total            75,587    355    0.5%      15,824    53     0.3%
by the number of Source: FRA
inspectors it has. FRA has an inspector workforce of approximately 400, who
oversee railroad compliance with Federal regulations by conducting regular
inspections of railroad property, such as equipment, tracks, and signals. These
inspectors also investigate accidents, complaints, and signal failures, and only 64
of them have the expertise to inspect signal and train control devices. Collecting
independent information about accidents would substantially improve FRA’s
ability to understand the causes of grade crossing collisions and better target
collisions that FRA decides it should itself investigate. We think this is especially
important given the limited resources of FRA’s inspection staff. FRA inspectors
normally investigate only those crossing collisions that involve the malfunction of
automated warning devices, or involve a commercial vehicle or school bus and
result in one death or several serious injuries, or death to three or more highway
users. While we found that FRA did investigate all but one of the collisions that
met its criteria, the criteria itself requires the investigation of very few collisions.
                                                                                     7

The fact that a fifth of all serious crossing collisions were not reported to NRC
further limits the number of investigations that FRA conducts.

According to FRA’s accident database, FRA investigated only 47, or 13 percent,
of the 376 most serious crossing collisions that occurred from 2000 through 2004.
We found that no Federal investigations were conducted for 329 of these crossing
collisions, which resulted in 159 deaths and 1,024 injuries. Unlike FRA, the
Federal Aviation Administration’s (FAA) inspectors arrive at the scene of
80 percent of all aviation accidents. FAA investigated about 1,352 aircraft
accidents in 2004 that killed 645 people. However, it is important to note that
FAA has an inspection staff that totals 3,579. FAA also has an Office of
Investigations that oversees the collection of information for aviation accidents.

3. FRA should strengthen its enforcement of grade crossing safety regulations.
FRA has made limited use of its regulatory enforcement authority to encourage
compliance by railroads that fail to properly inspect and maintain grade crossings
by assessing civil penalties (see Table 2). Active highway warning signals at
grade crossings play a
critical role in protecting                Table 2. Grade Crossing
lives of motorists and               Signal Violation Fines, 2000-2003
railroad employees.        We                      Class I     Other
found that from 2000                 Year        Railroads Railroads         Total
through        2004,      FRA        2000          $52,850       $8,800      $61,650
inspectors identified 7,490          2001         $142,550      $97,450 $240,000
critical safety defects, out of      2002          $96,450     $59,650 $156,100
69,405 total safety defects          2003         $173,350      $97,600 $270,950
related to railroad crossing      2000-2003       $465,200 $263,500 $728,700
warning        signals,     but Source: FRA
recommended only 347—
about 5 percent of critical defects—for violations.              A violation is a
recommendation that a civil penalty be assessed. During the same period, FRA
inspectors identified 2,692 instances of railroad employees failing to repair a grade
crossing warning system “without undue delay,” but recommended only 67 of
these instances—about 2.5 percent—for violations.

Just such a failure resulted in the deaths of an elderly couple in a collision at a
crossing in Henrietta, New York, on February 3, 2004. Seven days earlier, on
January 27, 2004, railroad employees disabled the warning signal system that was
causing false warning activations. The day after the fatal crash, FRA cited the
railroad for not promptly repairing the system, but did not recommend a civil
penalty. The following day, an FRA inspector recommended that the railroad be
penalized for failing to stop its train at the crossing and to flag the traffic. Later,
one more penalty was recommended for failing to repair without undue delay.
                                                                                    8

This case received a great deal of public scrutiny and was aggressively pursued by
the State’s Attorney General. FRA recently reported that it also assessed and
collected $298,000 in penalties against this railroad for this collision.

We have found a number of factors that limit FRA’s enforcement actions. First,
FRA has not set specific time limits for the repair of malfunctioning warning
systems. FRA’s rules prohibit an “undue delay,” that is, one that is “unjustifiable
or excessive.” In our view, this standard is overly subjective and makes
enforcement more difficult because there is no clear expectation of the time frame
for correcting deficiencies.

Second, all regulatory agencies rely on voluntary compliance. However, in the
case of railroad grade crossings, from 2000 through 2004, FRA inspectors
identified 7,490 critical safety defects, those that have the most direct safety
impact, but only recommended 347—about 5 percent—for civil penalties. These
defects include the failure of a signal to activate, and the failure of an employee to
respond in a timely manner to the report of a signal malfunction.

Third, even when an FRA inspector decides that a railroad should be issued a
violation, the inspector does not issue a citation that requires a railroad to pay a
fine for failing to comply with safety standards. Before fines can actually be
assessed, the recommendations must go through an adjudication process including
first, approval by regional FRA officials and then approval by the Chief Counsel at
FRA’s headquarters. Even if the Chief Counsel agrees to assess a fine, the
railroads typically negotiate with FRA, and are usually successful in decreasing
the fines. In total, FRA collected only $271,000 in fines from railroads in 2003 for
grade crossing signal violations.

FRA needs to consider whether the small number of violations recommended for
civil penalties and the low amounts of fines collected sufficiently encourage
railroads to better comply with Federal safety standards. FRA needs to emphasize
enforcement by issuing more violations and assessing civil penalties when critical
safety defects are discovered. We note that following the Secretary’s
announcement of the Department’s new Action Plan, FRA assessed one railroad
$298,000 for grade crossing signal violations related to the Henrietta, New York,
collision we mentioned earlier. This fine was larger than the total of all of the
fines imposed upon all of the railroads in 2003 for grade crossing signal violations.
That level of penalty can be expected to focus railroads’ attention on crossing
safety. FRA should sustain this type of aggressive enforcement activity. We hope
that this is not just an isolated case, but represents FRA’s new approach to
enforcing grade crossing safety regulations.
                                                                        9

That concludes my remarks. I would be glad to answer any questions you may
have.
